No. _________
6th Circuit
20-1639
___________________________________________________
_______
IN THE
Supreme Court of the United States
MATI LEEAL and
MALKA LEEAL,
PETITIONERS,
v.
DITECH FINANCIAL, LLC,
F/K/A GREEN TREE SERVICING, LLC,
RESPONDENT.
___________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
___________
Darwyn P. Fair & Associates, P.C.
Darwyn P. Fair (P31266)
535 Griswold, Ste. 111-554
Detroit, MI 48226
(313) 967-0595
dpfair@dpfairlaw.com
Attorneys for Petitioners

i
QUESTIONS PRESENTED
WHETHER THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT ERRED IN
AFFIRMING THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF
MICHIGAN OPINION GRANTING RESPONDENTS’
MOTION FOR SUMMARY JUDGMENT ON ALL OF
THE PETITIONERS’ CLAIMS RAISED AGAINST
RESPONDENTS
IN
THE
PETITIONERS’
COMPLAINT?

ii
PARTIES TO THE PROCEEDING
MATI LEEAL and
MALKA LEEAL,
PETITIONERS
v.
DITECH FINANCIAL, LLC,
F/K/A GREEN TREE SERVICING, LLC
RESPONDENT

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDING

ii

TABLE OF AUTHORITIES

iv

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT PROVISIONS INVOLVED

1

STATEMENT

2

REASONS FOR GRANTING THE PETITION

3

CONCLUSION

12

APPENDIX

13

iv
TABLE OF AUTHORITIES
CASES

Page

Alken-Ziegler, 461 Mich 219 at 233 ………………….. 6
Alycekay Co v Hasko Constr Co, Inc, 180 Mich.
App. 502, 505-506; 448 N.W.2d 43 (1989) …..………. 8
Bunner v Blow-Rite Insulation Co, 162 Mich.
App. 669, 673-674; 413 N.W.2d 474 (1987) …….…… 9
Harvey Cadillac Co v Rahain, 204 Mich App
355, 514 NW2d 257 (1994) ……………………….……. 6
Heugel v Heugel, 237 Mich App 471, 478;
603 NW2d 121 (1999) ……………………………...…… 7
Hill v Frawley, 155 Mich App 611, 614; 400
NW2d 328 (1986) ……………………………………...… 8
Holliday v Townley, 189 Mich.App. 424, 425;
473 N.W.2d 733 (1991) ….……………………………… 9
Lindsley v Burke, 189 Mich App 700, 474
NW2d 158 (1991) ………………………………...……… 6
Zinn v Fischer Distrib Co, 27 Mich App 591,
593, 183 NW2d 859 (1970) ………………………..…… 6
RULES
MCR 2.105 (D) ………………………………………..…. 7
MCR 2.105(J) (3) …………………………………….….. 8
MCR 2.612(C)(1)(a)-(f) ……………………………...….. 7

1
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Sixth Circuit and the opinion of the
United States District Court for the Eastern District of
Michigan were unpublished opinions.
JURISDICTION
The decision of the United States Court of
Appeals for the Sixth Circuit, affirming the appeal from
the District Court’s Granting Respondents’ Motion for
Summary Judgment on March 5, 2020. This Court has
jurisdiction pursuant to 28 U.S.C. §1254(1).
RELEVANT PROVISIONS INVOLVED
See Reasons for Granting the Petition..

2
STATEMENT
Respondent removed the action to District Court
on March 1, 2017, Respondent filed a Motion to Dismiss
on March 17, 2017. On September 15, 2017, the Court
denied Respondent’s Motion, stayed the case, and
directed Respondent to file a Motion in the State-Court
DJ Action seeking to set aside, vacate, or otherwise
obtain relief from the State-Court Default Judgment.
Respondent then returned to State Court and
moved that court to vacate the State-Court Default
Judgment. The State Court did not reach the merits of
Respondent’s Motion. Instead, it denied the Motion on
the grounds that Respondent failed to seek relief from
the State-Court Default Judgment in a timely manner.
The proceedings in the District Court then resumed.
Respondent filed an answer to the Petitioners’
Complaint on May 21, 2018. Respondent also brought
a Counter-Complaint against the Petitioners seeking a
declaratory judgment that the State-Court Default
Judgment was not binding on Respondent. Respondent
brought additional counterclaims contending, in the
alternative, that Respondent has an equitable mortgage
on the Petitioners’ property and that the Petitioners
have been unjustly enriched.
On October 31, 2018, Respondent filed a Motion
for Summary Judgment. Respondent also filed a
renewed Motion for Summary Judgment.
On June 23, 2020, the District Court Granted
Respondent’s Motion for Summary Judgment.

3
REASONS FOR GRANTING THE PETITION

I.

THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT ERRED IN
AFFIRMING THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF
MICHIGAN
OPINION
GRANTING
RESPONDENTS’ MOTION FOR SUMMARY
JUDGMENT ON ALL OF THE PETITIONERS’
CLAIMS RAISED AGAINST RESPONDENTS
IN THE PETITIONERS’ COMPLAINT.

On June 23, 2020, the District Court ruled the
following:
•

Judgment is entered in favor of Defendant
Ditech Financial LLC (“Ditech”) and against
Plaintiffs Mati Leeal and Malka Leeal on all
of the claims raised against Ditech in the
Leeals’ Complaint

•

It is further declared that:

A. The September 17, 2015, Default Judgment
entered by the Oakland County Circuit Court,
Case No. 15-46929-CH, is not binding on Ditech;
B. The Mortgage – dated November 16, 2007, and
recorded in Liber 39796– remains a valid and
enforceable first lien Mortgage against the

4
property at 29249 Chelsea Crossing, Farmington
Hills, Michigan, as Mati Leeal and Malka Leeal
could not adjudicate the underlying validity of
the Note and Mortgage when the proper parties
in interest were not named or represented in the
2015 action before the Oakland County Circuit
Court; and
C. Ditech is entitled to exercise its statutory and
contractual rights under the Mortgage, including
foreclosure.
•

Counts II and III of Ditech’s CounterComplaint are DISMISSED WITHOUT
PREJUDICE.

The District Court’s ruling was based on the reasoning
that the Petitioners had sued the wrong Party.
However, that was not the conclusion of the Oakland
County Circuit Court that in a series of rulings
concluded the following:
Upon the failure of the Defendants Abn
Amro Mortgage Group, Inc. and CitiMortgage,
Inc., to answer, plead or otherwise defend this
action and the Court having heard Plaintiff’s
Motion for Entry of Default Judgment, it is
hereby ordered:
IT IS HEREBY ORDERED that the Note
dated November 16, 2007, and the Mortgage
dated November 16, 2007, and recorded in Liber

5
39796, Page 368 with the Oakland County
Register of Deeds which were entered into with
Plaintiffs are void as Defendant Abn Amro
Mortgage Group, Inc. ceased to exist as of the
date of the execution of said mortgage and note
and said Defendant was no longer authorized to
transact business in Michigan as of September
21, 2007;
IT IS FURTHER ORDERED that
Defendant Abn Amro Mortgage Group, Inc.
lacked legal capacity to enter into the note dated
November 16, 2007, and the Mortgage dated
November 16, 2007, and recorded in Liber 39796,
Page 368 with the Oakland County Register of
Deeds entered into with Plaintiffs;
IT IS FURTHER ORDERED that there is
no legal basis documented or otherwise which
requires Plaintiff to make any payments to
Defendants CitiMortgage, Inc. or Defendant Abn
Amro Mortgage Group, Inc. relative to the
Mortgage and/or note with Plaintiffs dated
November 16, 2007, and the Mortgage of the
same date and recorded in Liber 39796, Page 368
with the Oakland County Register of Deeds.
Thus, the premise of the District Court’s ruling is
inaccurate, the Oakland County ruling should prevail,
and the District Court should have denied Respondents
renewed Motion for Summary Disposition.

6
Assuming that the District Court premise is
correct in that Petitioners sued the wrong party, the
District Court’s ruling must still fail. Michigan law is
quite clear. To set aside a default judgment Respondent
must follow the State of Michigan statutory scheme and
case law. Michigan appellate court generally will not
reverse a lower court’s decision on setting aside a
default judgment unless the lower court clearly abused
its discretion. Alken-Ziegler, 461 Mich 219 at 233;
Harvey Cadillac Co v Rahain, 204 Mich App 355, 514
NW2d 257 (1994); Lindsley v Burke, 189 Mich App 700,
474 NW2d 158 (1991).
The courts have gone a step further by stating
that it is the policy in Michigan not to set aside a default
judgment unless these requirements are strictly met.
Specifically, the court of appeals invoked “the
established policy that courts are strict in setting aside
defaults regularly entered.”Zinn v Fischer Distrib Co,
27 Mich App 591, 593, 183 NW2d 859 (1970). Zinn is
cited in the collection attorney’s dream case, Glasner, in
which the court refused to set aside the default
judgment for $21,233.
NO GOOD CAUSE AND MERITORIOUS
DEFENSE
Respondent’s Motions in the Oakland County
Circuit Court to set aside the Circuit Court Orders must
establish good cause and an affidavit of facts showing a
meritorious defense. Respondent could not show good
cause in that Respondent was served with a copy of the
Judgment, and the Respondent waited eighteen months

7
before they took any affirmative action to address the
Court Order.
Finally, Respondent did not have a meritorious
defense in that the Respondent unlawfully foreclosed on
the subject property in breach of Quiet Title statutes
and case law.
THERE WAS NO MISTAKE, INADVERTENCE,
SURPRISE, OR EXCUSABLE NEGLECT
The Oakland County Court could have relieved
the Respondent from a Default, order, or proceeding on
the basis: (1) of mistake, inadvertence, surprise, or
excusable neglect...(5) that the judgment has been
satisfied, released, or discharged; a prior judgment on
which it is based has been reversed or otherwise
vacated; or it is no longer equitable that the judgment
should have prospective application; or (6) any other
reason justifying relief from the operation of the
judgment. MCR 2.612(C)(1)(a)-(f). Heugel v Heugel, 237
Mich App 471, 478; 603 NW2d 121 (1999). In the case
at bar, the Oakland County Court refused to do so. See
Judge Shalina Kumar November 22, 2017, Order after
Motion and Judge Shalina Kumar December 20, 2017,
Order after Motion.
PROPER SERVICE
Respondent’s claim that they were not properly
served or notified.
Pursuant to MCR 2.105(E)
Respondent’s claim is without merit. MCR 2.105(E) (D)

8
is a non-issue because Respondent received actual
notice under MCR 2.105(J) (3) which states as follows:
(3) An action shall not be dismissed for
improper service of process unless the
service failed to inform the defendant of
the action within the time provided in
these rules for service.
Respondent’s actual notice of the Judgment as
evidenced by Petitioners sending a copy of the
Judgment to Respondent.
By analogy, in Hill v Frawley, 155 Mich App 611,
614; 400 NW2d 328 (1986) the Court stated that an
action shall not be dismissed for improper service of
process unless the service failed to inform the defendant
of the action within the time provided in these rules for
service." "Thus, if a defendant actually receives a copy
of the summons and complaint within the permitted
time, he cannot have the action dismissed on the ground
that the manner of service contravenes the rules." Hill
v Frawley, 155 Mich App 611, 614; 400 NW2d 328
(1986).
Also, the failure to technically comply with MCR
2.105(E) does not render service of process ineffective.
Notably, the rules applicable to service of process "are
not intended to limit or expand the jurisdiction given
the Michigan courts over a defendant." MCR
2.105(J)(1). As a result, strict compliance with the rules
is not mandated. MCR 2.105(J)(3); Alycekay Co v Hasko

9
Constr Co, Inc, 180 Mich.App. 502, 505-506; 448 N.W.2d
43 (1989). Rather, "[t]his Court has held that service-ofprocess rules are intended to satisfy the due process
requirement that a defendant be informed of the
pendency of an action by the best means available, by
methods reasonably calculated to give a defendant
actual notice of the proceeding and an opportunity to be
heard and to present objections or defense." Bunner v
Blow-Rite Insulation Co, 162 Mich.App. 669, 673-674;
413 N.W.2d 474 (1987).
Because the purpose underlying the rules
governing service of process is to provide actual notice
of a lawsuit and an opportunity to defend, MCR
2.105(I)(1), courts shall not dismiss an action based on
improper service unless the service failed to inform the
defendant of the existence of a claim within the time
specified within the court rules. MCR 2.105(J)(3);
Holliday v Townley, 189 Mich.App. 424, 425; 473
N.W.2d 733 (1991). Contrary to the majority's opinion,
the focus is not on the method of process used to provide
the notice but rather on whether the service used
actually provided timely notice of the complaint to an
authorized individual.
Respondent argues that there is "a complete
failure of service of process." Holliday v Townley, 189
Mich.App. 424, 425; 473 N.W.2d 733 (1991). Contrary
to that argument, however, the facts presented here did
not establish a "complete failure of service of process in
that evidenced by the facts and ruling of the Oakland
County Circuit Court. Since the Appellee was "aware

10
of" the Judgment, then service was proper under MCR
2.105(J)(3).
A. THE DISTRICT COURT ERRED IN
RULING THAT THE SEPTEMBER
17, 2015, DEFAULT JUDGMENT
ENTERED
BY
THE
OAKLAND
COUNTY CIRCUIT COURT, CASE
NO. 15-46929-CH, IS NOT BINDING
ON RESPONDENT.
Petitioners hereby incorporate by reference each
and every prior argument contained in Section 1 above
in their entirety, as if fully rewritten herein.
B. THE DISTRICT COURT ERRED IN
RULING THAT THE MORTGAGE
REMAINS
A
VALID
AND
ENFORCEABLE
FIRST
LIEN
MORTGAGE
AGAINST
THE
PROPERTY AT 29249 CHELSEA
CROSSING, FARMINGTON HILLS,
MICHIGAN,
AS
PETITIONERS
COULD NOT ADJUDICATE THE
UNDERLYING VALIDITY OF THE
NOTE AND MORTGAGE WHEN THE
PROPER PARTIES IN INTEREST
WERE
NOT
NAMED
OR
REPRESENTED
IN
THE
2015
ACTION BEFORE THE OAKLAND
COUNTY CIRCUIT COURT.

11
Petitioners hereby incorporate by reference each
and every prior argument contained in Section 1 above
in their entirety, as if fully rewritten herein.
C. THE DISTRICT COURT ERRED IN
RULING THAT RESPONDENT IS
ENTITLED
TO
EXERCISE
ITS
STATUTORY AND CONTRACTUAL
RIGHTS UNDER THE MORTGAGE,
INCLUDING FORECLOSURE.
Petitioners hereby incorporate by reference each
and every prior argument contained in Section 1 above
in their entirety, as if fully rewritten herein.

12
CONCLUSION
For the above and foregoing reasons, Petitioners
respectfully request the issuance of a Writ of Certiorari
to the United States Court of Appeals for the Sixth
Circuit.
Respectfully submitted,
DARWYN P. FAIR & ASSOCIATES
/s/Darwyn P. Fair
DARWYN P. FAIR (P31266)
Attorney for Petitioners
535 Griswold, Ste. 111-554
Detroit, Michigan 48226
(313) 967-0595
dpfair@dpfairlaw.com
Dated: July 19, 2021

13
APPENDIX
United States Court of Appeal For the
Sixth Circuit Order and Opinion

14a-14g

United States District Court Eastern
District of Michigan Judgment of
Dismissal

15a-15b

United States District Court Eastern
District of Michigan Order Granting
Defendants Motion to Dismiss

16a-16b

United States District Court Eastern
District of Michigan Opinion and Order 17a-17r
United States District Court Eastern
District of Michigan Order Denying
Defendant’s Motion for Summary
Judgment

18a

United States District Court Eastern
District of Michigan Order Denying
Defendant’s Motion to Dismiss

19a-19b

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: February 19, 2021
Mr. Nathan H. Blaske Dinsmore
255 E. Fifth Street Suite 1900
Cincinnati, OH 45202
Mr. Darwyn Prentiss Fair Law Office
535 Griswold
Suite 111-554
Detroit, MI 48226
Re: Case No. 20-1639, Mati Leeal, et al v. Ditech
Financial LLC
Originating Case No.: 2:17-cv-10645
Dear Counsel,
The Court issued the enclosed opinion today in
this case.
Sincerely yours,
s/Cathryn Lovely
Opinions Deputy
cc: Ms. Kinikia D. Essix
Enclosure
Mandate to issue

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0095n.06
Case No. 20-1639
UNITED STATES COURT OF APPEALS FOR
THE SIXTH CIRCUIT

FILED
Feb 19, 2021
DEBORAH S. HUNT, Clerk
MATI LEEAL, et al.,
Plaintiff-Appellants,
v.

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE E A S T E R N
DISTRICT OF MICHIGAN

OPINION
DITECH FINANCIAL, LLC,
Defendant-Appellee.
BEFORE: WHITE, LARSEN, and NALBANDIAN,
Circuit Judges.
NALBANDIAN, Circuit Judge. Plaintiffs, the
Leeals, hoped that a state court judgment would relieve
them of their mortgage payments. And it might have, if
they had sued the right parties. But when they stopped
making mortgage payments, Defendant Ditech began
foreclosing on the mortgage. And the prior state court
default judgment purporting to void their mortgage

could not stop the foreclosure because Ditech had not
been a party in the state court. As a result, the district
court granted Ditech’s summary judgment motion
because the state court judgment did not bind the
parties in this case. The Leeals make no argument that
supports reversal, so we AFFIRM.
I.
Mati and Malka Leeal took out a $301,000
mortgage loan from ABN AMRO, an assumed name for
CitiMortgage (CMI). Later, the Federal National
Mortgage Association (“Fannie Mae”) bought the
mortgage from CMI, and Green Tree Servicing, LLC
bought the servicing rights. So the Leeals started
sending Green Tree their mortgage payments and
directing discussion about the loan to Green Tree’s
customer service.
But a year later, the Leeals filed an action for
declaratory judgment in state court, alleging that the
mortgage note was void. They named only ABN AMRO
and CMI as defendants, not Fannie Mae or Green Tree.
The Leeals continued paying Green Tree, which had no
inkling of the pending action. And when Green Tree
merged into Ditech, the Leeals started paying Ditech.
They did not notify Fannie Mae or Green Tree of the
action until it was over.
Having no interest in the Leeals’ case, CMI and
ABN AMRO never appeared. So the state court issued
a default judgment declaring the mortgage loan void.
The Leeals stopped paying. Ditech notified the Leeals of
their default on the remaining $299,980 balance and
later began foreclosure. The Leeals responded with a
second state action, this one asking the state to block
the foreclosure because of the previous state court

judgment. The state court issued a temporary
restraining order. And Ditech removed the case to
federal court.
The district court first required Ditech to file a
motion in state court to set aside, vacate, or otherwise
obtain relief from the default judgment. But the state
court denied it as untimely. Back in federal court again,
Ditech filed an answer, a counter- complaint, and a
motion for summary judgment based on res judicata
and collateral estoppel—without avail. Finally, the
district court granted Ditech’s second summary
judgment motion, which argued that the state court
default judgment did not bind Ditech or Fannie Mae
because they were not parties to the action.
The district court noted that, because the Leeals sought
to determine their own personal obligations to CMI and
ABN AMRO and did not name the property as a party,
their state action was in personam. An in personam
action, the court added, determines only “personal
rights and obligations.” (R. 55, Dist. Ct. Op., Page 12
(quoting Int’l Typographical Union v. Macomb County,
11 N.W.2d 242, 247 (Mich. 1943).) And it cited the
principle that in personam judgments do not bind
anyone who was not a party to the action, in part
because of the serious due process concerns that would
result. So the state court judgment made the mortgage
loan “void” only between the Leeals and the companies
ABN AMRO and CMI. Without disturbing the state
court’s judgment, the district court held that it did not
bind Ditech. The Leeals
appealed.1
Although the district court reserved the issue of attorneys’ fees, that
does notaffect the finality of the judgment for appeal purposes. See Tahfs
v. Proctor, 316 F.3d584, 590 (6th Cir. 2003)
1

II.
We review summary judgment grants de novo,
viewing the evidence in thelight most favorable to the
non-movant and affirming only if there is no genuine
issue of material fact. Am. Council of Certified Podiatric
Physicians & Surgeons v. Am. Bd.of Podiatric Surgery,
Inc., 323 F.3d 366, 369–70 (6th Cir. 2003); FED. R. CIV.
P. 56(a).
The Leeals raise four arguments that the district
court erred. None are persuasive. First, they note that
the district court based its ruling on the fact that the
Leeals had sued the wrong people in state court.
They say that this conclusionconflicts with the state
court’s default judgment, quoting it in its entirety. But
theydo not provide any explanation for how the two
conflicts.2 And they cite no legalauthority. “It is not
sufficient for a party to mention a possible argument in
the most skeletal way, leaving the court to put flesh on
its bones.” McPherson v. Kelsey, 125 F.3d 989, 995–96
(6th Cir. 1997) (quoting Citizens Awareness Network,
Inc. v. U.S. Nuclear Regulatory Comm’n, 59 F.3d 284,
293–94 (1st Cir. 1995) (ellipsis removed)). Because the
Leeals gave no “effort at developed argumentation,” this
issue is waived.
Id. at 995.

Even the text of the order that the brief quotes reflects that the state
court judgment determined only the legal rights between the Leeals and
the defendants listed in the state court action: “[T]here is no legal basis
documented or otherwise which requires Plaintiff to make any payments
to Defendants CitiMortgage, Inc. or Defendant Abn Amro Mortgage
”
(Appellant’s Br. at 14. (quoting R. 5-10, Default
Judgment and Order, Page 3).)
2

The Leeals then argue that Michigan law
prevents the district court from setting aside the default
judgment. This argument is misguided in two ways.
First, the district court did not set aside the default
judgment, but rather clarified that it does not apply to
non-parties. Second, the Leeals cite cases that describe
the standard that Michigan appeals courts apply when
reviewing default judgments on direct appeal. Since the
district court was not reviewing the state court’s
judgment, but rather determining who it bound, these
authorities are irrelevant.
The Leeals next state that Ditech does not have
the “good cause” and “meritorious defense” necessary to
set aside the default judgment. And they argue that
Ditech has not shown “mistake, inadvertence, surprise,
or excusable neglect” or any other reason to merit relief
from the default judgment. These arguments again
disregard the district court’s ruling: the default
judgment stands, but it only binds the parties that were
before the court.
Finally, the Leeals dispute the district court’s
notation that Ditech had received no service or notice of
the state court lawsuit when it was commenced. The
Leeals respond that they sent Ditech a copy of the
“Judgment” after the state court entered it. But service
of process must happen before the case ends to provide
an “opportunity to be heard and to present objections or
defenses.” Bunner v. Blow-Rite Insulation Co., 413
N.W.2d 474, 476 (Mich. Ct. App. 1987). That is why the
Michigan court rule the Leeals cite requires that service
be timely, Mich. Ct. R. 2.105(J)(3), which means that
the plaintiff must have served the summons on the
defendant within ninety-one days after the clerk issued
it. Id. at 2.102(D), (E)(1). The Leeals do not allege that
they timely served Ditech with a summons. They allege

that they mailed a copy of the judgment more than 130
days after they filed their action and after it was too late
to respond. That is not service of process.
III.
None of the arguments the Leeals proffer show that
they are entitled to relief.
We AFFIRM.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MATI LEEAL, et al.,
Plaintiffs,

Case No. 17-cv-10645
Hon. Matthew F. Leitman

v.
DITECH FINANCIAL LLC,
F/K/A GREEN TREE SERVICING, LLC,
Defendant.
__________________________________________________/
JUDGMENT
In accordance with the Court’s Opinion and
Order Granting Defendant’s Renewed Motion for
Summary Judgment (ECF No. 55), dated March 5,
2020, and the Court’s Order Granting Defendant’s
Motion to Dismiss Defendant’s Counterclaims (ECF No.
58), dated May 27, 2020.
IT IS HEREBY ADJUDGED AND DECLARED
that:
•

•

Judgment is entered in favor of Defendant
Ditech Financial LLC (“Ditech”) and against
Plaintiffs Mati Leeal and Malka Leeal on all of
the claims raised against Ditech in the Leeals’
Complaint (ECF No. 1, PageID.22–25).
It is further declared that:
A. The September 17, 2015, Default Judgment
entered by the OaklandCounty Circuit Court,

•

Case No. 15-46929-CH, is not binding on Ditech;
B.
The Mortgage – dated November 16,
2007, and recorded in Liber 39796 (see
Mortgage, ECF No. 49-1, PageID.1170–1178;
Note, ECF No. 49-1, PageID.1166–1168) –
remains a valid andenforceable first lien
Mortgage against the property at 29249 Chelsea
Crossing, Farmington Hills, Michigan, as Mati
Leeal and Malka Leeal could not adjudicate the
underlying validity of the Noteand Mortgage
when the proper parties in interest were not
named orrepresented in the 2015 action before
the Oakland County Circuit Court; and
C.
Ditech is entitled to exercise its statutory
and contractual rights under the Mortgage,
including foreclosure.
Counts II and III of Ditech’s Counter-Complaint
(ECF No. 17, PageID.539– 544) are
DISMISSED WITHOUT PREJUDICE.
IT IS SO ORDERED.
DAVID J. WEAVER
CLERK OF THE COURT
BY: s/Holly A. Monda Lang
Deputy Clerk

APPROVED:
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: June 23. 2020
Flint, Michigan

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MATI LEEAL, et al.,
Plaintiffs,

Case No. 17-cv-10645
Hon. Matthew F. Leitman

v.
DITECH FINANCIAL LLC.,
Defendant.
/
ORDER (1) GRANTING DEFENDANT’S MOTION
TO DISMISS DEFENDANT’S COUNTERCLAIMS
(ECF No. 57) AND (2) DIRECTING DEFENDANT
TO SUBMIT A PROPOSED JUDGMENT
On March 5, 2020, the Court issued an Opinion
and Order Granting Defendant’s Renewed Motion for
Summary Judgment and Denying Without Prejudice
Defendant’s Request for Attorneys’ Fees (ECF No. 55).
Defendant Ditech Financial LLC (“Ditech”) has now
filed a motion: (1) to withdraw its request for attorneys’
fees without prejudice to reasserting that claim in the
event this litigation continues, (2) to dismiss its
counterclaims in this case (see Counter-Complaint, ECF
No. 17, PageID.526–545), and (3) for the Court to enter
judgment in this case. (See Mot., ECF No. 57,
PageID.1305–1306.)
Ditech’s Motion (ECF No. 57) is GRANTED as
follows:

•
•
•

Ditech’s request for attorneys’ fees is hereby
WITHDRAWN WITHOUT PREJUDICE;
Ditech’s counterclaims are hereby DISMISSED
WITHOUT PREJUDICE; and
The Court DIRECTS Ditech to submit a
proposed judgment by not later than June 10,
2020. Plaintiffs shall submit any objections to
Ditech’s proposed judgment within 10 DAYS
after Ditech submits its proposed judgment.
Thereafter, the Court will evaluate Ditech’s
proposed judgment and any objections by
Plaintiffs
and
proceed
accordingly.
IT IS SO ORDERED.
s/Matthew F. Leitman
Matthew F. Leitman
United States District Judge

Dated: May 27, 2020
I hereby certify that a copy of the foregoing
document was served upon theparties and/or counsel
of record on May 27, 2020, by electronic means and/or
ordinary mail.
s/Holly A. Monda
Case Manager
(810) 341-9764

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MATI LEEAL, et al.,
Plaintiffs,

Case No. 2:17-cv-10645
Hon. Matthew F. Leitman

v.
DITECH FINANCIAL LLC.,
Defendant.
/
OPINION AND ORDER (1) GRANTING
DEFENDANT’S RENEWED MOTION FOR
SUMMARY JUDGMENT (ECF No. 49) AND
DENYING WITHOUT PREJUDICE
DEFENDANT’S REQUEST FOR ATTORNEYS’
FEES
Plaintiffs Mati and Malka Leeal defaulted on
their home mortgage loan, so Defendant Ditech
Financial LLC (“Ditech”), the Leeals’ loan servicer,
initiated foreclosure proceedings against them. In this
action, the Leeals contend that Ditechmay not foreclose
on their mortgage because they (the Leeals) previously
obtained a state-court default judgment in which the
state court declared “void” the note secured by the
mortgage. The Leeals insist that since the note secured
by the mortgage was voided by the default judgment,
the mortgage is no longer viable, andno foreclosure of
the mortgage is permissible.

The problem for the Leeals is that they sued the
wrong parties in the prior state-court action. Instead of
suing the owner of the note and Ditech (which was the
servicer and holder of the mortgage at that time), the
Leeals sued the former note owner and the prior
mortgage servicer – neither of whom had any interest
in the note or the mortgage at that time. Under settled
law, the default judgment entered against those two
uninterested parties does not extinguish the actual note
owner’s valid ownership interest in the note, does not
bar the note owner from enforcing the note, and does
not bar Ditech from foreclosing on the mortgage that
secures the note.
For these reasons, and the others set forth below,
the Court GRANTS Ditech’s renewed motion for
summary judgment.
I
A
On November 16, 2007, the Leeals took out a
$301,000 mortgage loan from ABN AMRO Mortgage
Group, Inc. (“ABN AMRO”). (See Ditech Corporate
Litigation Representative Stewart Derrick Decl. ¶ 4,
ECF No. 49-1, PageID.1161.) The loan was
memorialized by a note that identified ABN AMRO as
the lender (the “Note”), and the Note was secured by a
mortgage (the “Mortgage”).1 (See id.; see also Note, ECF
No. 49-1, PageID.1166–1168; Mortgage, ECF No. 49-1,
__________________________________________________
A note is a promise to repay a loan. See Flagstar Bank, FSB v. Fed. Ins. Co., No.
05-70950, 2006 WL 3343765, at *12 (E.D. Mich. 2006). A mortgage “is a lien on real
property intended to secure performance or payment on” that promise. Prime Fin.
Servs. LLC v. Vinton, 761 N.W.2d 694, 703 (Mich. Ct. App. 2008). A mortgage is
considered “a contingent interest in real property,” while “a note secured by a
mortgage is itself personal property.” Id.
1

PageID.1170–1178.) At the time of this transaction,
ABN AMRO was an assumed name for CitiMortgage,
Inc. (“CMI”). (See CMI Senior Recovery Analyst John
James Decl. ¶¶ 4–5, ECF No. 49-2, PageID.1207.) Thus,
CMI was the actual lender of the funds to the Leeals.
On December 1, 2007, the Federal National
Mortgage Association (“Fannie Mae”) purchased the
Leeals’ loan from CMI. (See, e.g., Fannie Mae Assistant
Vice President Erich Ludwig Decl. ¶¶ 4–5, ECF No. 493, PageID.1238.) Fannie Mae has owned the Leeal’s
loan ever since. (See id.)
In addition to being the original lender, CMI was
the servicer for the Leeals’ loan for a period of time
beginning on March 1, 2008. (See James Decl. ¶ 7, ECF
No. 49-2, PageID.1207.) As the loan servicer, CMI
received and processed the Leeals’ loan payments and
corresponded with the Leeals by phone and by letters
regarding their loan. (See id. ¶¶ 10–11, PageID.1208.)
On April 1, 2014, Green Tree Servicing, LLC
(“Green Tree”) acquired the servicing rights for the loan
from CMI. (See James Decl. ¶ 8, ECF No. 49-2,
PageID.1207–1208.) Both CMI and Green Tree notified
the Leeals that the servicing of the loan had been
transferred to Green Tree. (See 3/17/14 CMI Service
Transfer Letter, ECF No. 49-2, PageID.1218–1219;
3/21/14 Green Tree Service Transfer Letter, ECF No.
49-1, PageID.1183–1186.) On April 11, 2014, CMI also
assigned the Mortgage to Green Tree (see Derrick Decl.
¶ 7, ECF No. 49-1, PageID.1162), and CMI recorded this
assignment of the Mortgage. (See Assignment of
Mortgage, ECF No. 49-1, PageID.1188–1189.) The
Leeals began making their loan payments to Green
Tree in May 2014. (See Derrick Decl. ¶ 14, ECF No. 491, PageID.1163.) The Leeals also corresponded with
Green Tree concerning the servicing of their loan. (See,

e.g., id. ¶¶ 9, 12, ECF No. 49-1, PageID.1162–1163;
6/1/15 Leeal Letter, ECF No. 49-1, PageID.1191; 6/5/15
Green Tree Letter, ECF No. 49-1, PageID.1193.)
B
On May 7, 2015, the Leeals filed a declaratoryjudgment action against CMI and ABN AMRO in the
Oakland County Circuit Court (the “State-Court DJ
Action”). (See State-Court DJ Action, ECF No. 5-6.) The
Leeals alleged, among other things, that the Note was
void, and they asked the state court to determine
whether they had any continuing obligation to make
payments to CMI or ABN AMRO under the Note or the
Mortgage. (See id.)
Critically, at the time the Leeals filed the StateCourt DJ Action, neither CMI nor ABN AMRO had any
connection to the Leeals’ loan or to the Mortgage. As
explained above, the loan had been sold to Fannie Mae,
and the Mortgage had been assigned to Green Tree. But
the Leeals did not name either Fannie Mae or Green
Tree as defendants in the State-Court DJ Action. Nor
did the Leeals notify Fannie Mae or Green Tree that
they had filed the State-Court DJ Action. (See, e.g.,
Proof of Service, ECF No. 5-7.)
C
With the State-Court DJ Action pending, Green
Tree – which, again, was unaware of that action –
continued to service the Leeals’ loan. (See Derrick Decl.
¶ 14, ECF No. 49-1, PageID.1163.) And the Leeals
continued sending loan payments to Green Tree. (See
id.)

In the summer of 2015, Green Tree decided to
merge into Ditech. Green Tree sent the Leeals a notice
of the pending merger and name change on August 5,
2015. (See Notice of Ditech Merger, ECF No. 49-1,
PageID.1195.) On August 31, 2015, Green Tree merged
into Ditech and started operating under Ditech’s name.
(See Derrick Decl. ¶ 13, ECF No. 49-1, PageID.1163.)
Thereafter, the Leeals made loan payments to Ditech.
(See Derrick Decl. ¶ 14, ECF No. 49-1, PageID.1163.)
D
Unsurprisingly, neither CMI nor ABN AMRO
ever appeared in the State- Court DJ Action. They had
no interest to protect in that action and thus no need or
incentive to appear.
Because CMI and ABN AMRO failed to appear,
the state court issued a default judgment against them
on September 16, 2015 (the “State-Court Default
Judgment”). (See State-Court Default Judgment, ECF
No. 5-10.) The State-Court Default Judgment declared
that the Note and Mortgage were “void” and that the
Leeals had no obligation to repay the funds that they
had borrowed. In its entirety, the State-Court Default
Judgment provides as follows:
Upon the failure of the Defendants Abn Amro
Mortgage Group, Inc. and CitiMortgage, Inc., to
answer, plead or otherwisedefend this action and
the Court having heard Plaintiff’s Motion for
Entry of Default Judgment, it is hereby ordered:
IT IS HEREBY ORDERED that the Note dated
November 16, 2007 and the Mortgage dated
November 16, 2007 and recorded in Liber 39796,
Page 368 with the Oakland County Register of

Deeds which were entered into with Plaintiffs are
void as Defendant Abn Amro Mortgage Group,
Inc. ceased to exist as of the date of the execution
of said mortgage and note and said Defendant
was no longer authorized to transact businessin
Michigan as of September 21, 2007;
IT IS FURTHER ORDERED that Defendant Abn
AmroMortgage Group, Inc. lacked legal capacity
to enter into the note dated November 16, 2007
and the Mortgage dated November 16,2007 and
recorded in Liber 39796, Page 368 with the
Oakland County Register of Deeds entered into
with Plaintiffs;
IT IS FURTHER ORDERED that there is no
legal basis documented or otherwise which
requires Plaintiff to make any payments to
Defendants CitiMortgage, Inc. or Defendant Abn
Amro Mortgage Group, Inc. relative to the
Mortgage and/or note with Plaintiffs dated
November 16, 2007 and the Mortgage of thesame
date and recorded in Liber 39796, Page 368
with theOakland County Register of Deeds.
IT IS SO ORDERED.
(Id., PageID.293–294.)
E
On September 17, 2015, one day after entry
of the State-Court DefaultJudgment, Ditech received
the Leeals’ last payment on their loan. (See Derrick Decl.

¶¶ 14–15, ECF No. 49-1, PageID.1163.)
At that
point, the Leeals still owed $299,980 in principal on
the loan. (See id. ¶ 18, PageID.1164; 10/8/18 Payoff
Quote,ECF No. 49-1, PageID.1203.) But they stopped
making payments.
Ditech mailed the Leeals notices of default on
November 27, 2015, and May13, 2016. (See Notices of
Default, ECF No. 49-1, PageID.1197–1201.) The Leeals
still did not make any payments. So, on January 26,
2017, Ditech began foreclosure by advertisement
proceedings on the Mortgage. (See Notice of Mortgage
Foreclosure Sale, ECF No. 5-14, PageID.339.)
F
In response to the foreclosure proceedings, on
February 23, 2017, the Leeals filed this action against
Ditech in the Oakland County Circuit Court. (See
Verified Compl., ECF No. 5-14.) The Leeals asked the
state court to block Ditech from foreclosing on the
Mortgage. They contended that Ditech had no right to
foreclose even though (1) roughly $300,000 remained
owing on their loan and (2) they had not made a
payment on the loan in eighteen months. All of the
Leeals’ claims rest on their contention that Ditech could
not foreclose because (1) the State-Court Default
Judgment voided the Note, (2) the Mortgage thus no
longer secured a valid note, and (3) there can be no
foreclosure on a mortgage that does not secure a valid
note. (See id. ¶¶ 19–30, PageID.310–311.) As the Leeals’
counsel has acknowledged, if the Court accepts their
argument that Ditech may not foreclose, then they
would be permitted keep their house without ever
repaying the roughly $300,000 that remains owing on

their loan. (See 9/14/17 Hr’g Tr. at 28–30, ECF No. 9,
PageID.398–400.)
The same day that the Leeals filed their
complaint, the Oakland County Circuit Court issued a
temporary restraining order that prevented Ditech
from foreclosing. (See TRO, ECF No. 1, PageID.10–11.)
Ditech removed the action to this Court on March
1, 2017. (See Notice of Removal, ECF No. 1, PageID.1–
8.) Ditech filed a motion to dismiss on March 17, 2017.
(See Mot. to Dismiss, ECF No. 3.) On September 15,
2017, the Court deniedDitech’s motion, stayed the case,
and directed Ditech to file a motion in the State- Court
DJ Action seeking to set aside, vacate, or otherwise
obtain relief from the State-Court Default Judgment.
(See Order, ECF No. 8.) The Court instructed Ditechto
file such a motion because the Court believed that the
state court might reconsider its judgment when
informed that the Leeals failed to name as defendants
the then- owner of the loan and the then-servicer and
holder of the Mortgage. (See 9/14/17 Hr’g Tr. at 53–57,
ECF No. 9, PageID.423–427.)
Ditech then returned to state court and moved
that court to vacate the State- Court Default Judgment.
The state court did not reach the merits of Ditech’s
motion.Instead, it denied the motion on the ground that
Ditech failed to seek relief from theState-Court Default
Judgment in a timely manner. (See Notice of Entry of
Order, ECF No. 10; 12/12/17 Hr’g Tr. at 38–39, ECF No.
12-1, PageID.486–487.)
The proceedings in this action then resumed.
Ditech filed an answer to the Leeals’ Complaint on May
21, 2018. (See Answer, ECF No. 17.) Ditech also brought
a Counter-Complaint against the Leeals seeking a
declaratory judgment that the State-Court Default
Judgment was not binding on Ditech. (See id. ¶¶ 47–61,

PageID.535–539.)
Ditech
brought
additional
counterclaims contending, in the alternative, that
Ditech has an equitable mortgage on the Leeals’
property and that the Leeals have been unjustly
enriched. (See id. ¶¶ 62–83, PageID.539–544.)
G
On October 31, 2018, Ditech filed a motion for
summary judgment. (See Mot. for Summ. J., ECF No.
30.) Ditech primarily argued that the State-Court
Default Judgment was not binding on Ditech through
either res judicata or collateral estoppel. (See id.,
PageID.676–683.) On August 9, 2019, the Court held a
hearing on Ditech’s motion. (See 8/9/19 Hr’g Tr., ECF
No. 44.) The Court was not convinced that res judicata
and collateral estoppel were the appropriate legal
principles to apply to the case, and the Court denied
Ditech’s motion without prejudice. (See id. at 29, 43–
44, 55, PageID.1089, 1103–1104, 1115; Order, ECF
No. 41.)
At the Court’s invitation, Ditech has now filed a
renewed motion for summary judgment. (See Renewed
Mot. for Summ. J., ECF No. 49.) Ditech’s current motion
argues that the State-Court Default Judgment is not
binding upon, and did not determine any rights of,
either Ditech (the current servicer of the Leeals’ loan)
or Fannie Mae (the current owner of the Leeals’ loan)
because neither were parties to the State-Court DJ
Action. Rather than focusing on principles of res
judicata and collateral estoppel, the current motion
focuses upon the scope of an in personam judgment like
the State-Court Default Judgment.
Ditech requests “that this Court enter summary
judgment in favor of Ditech on the Leeals’ complaint,

and on Count I of Ditech’s counterclaim for declaratory
judgment, finding that: (1) Ditech did not illegally
foreclose or violate MCLA 600.3204; (2) the Default
Judgment does not impair Ditech’s right to foreclose;
and (3) Ditech has a valid and enforceable interest in
the note and mortgage entitling Ditech to foreclose.”
(Id., PageID.1156.) Ditech also asks the Court “to award
Ditech its attorneys’ fees and costs under Section 9 of
the mortgage, and to dissolvethe temporary restraining
order currently entered against it.” (Id., PageID.1156–
1157.)
II
A movant is entitled to summary judgment when
it “shows that there is no genuine dispute as to any
material fact.” SEC v. Sierra Brokerage Servs., Inc., 712
F.3d 321, 326–27 (6th Cir. 2013) (citing Fed. R. Civ. P.
56(a)). When reviewing therecord, “the court must view
the evidence in the light most favorable to the nonmoving party and draw all reasonable inferences in its
favor.” Id. (quoting Tysinger v. Police Dep’t of City of
Zanesville, 463 F.3d 569, 572 (6th Cir. 2006)). “The
mereexistence of a scintilla of evidence in support of the
[non-moving party’s] position will be insufficient; there
must be evidence on which the jury could reasonably
findfor [that party].” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 252 (1986).Summary judgment is not
appropriate when “the evidence presents a sufficient
disagreement to require submission to a jury.” Id. at
251–52. Indeed, “[c]redibility determinations, the
weighing of the evidence, and the drafting of legitimate
inferences from the facts are jury functions, not those of
a judge.” Id. at 255.

III
A
The Court agrees with Ditech that the State-Court
Default Judgment does notbar Ditech from foreclosing
on the Mortgage. As explained below, that judgment did
not “void” Fannie Mae’s ownership interest in the Note.
Thus, contrary to the Leeals’ argument, the Mortgage
continues to secure a viable note, and the judgmentdoes
not prevent Ditech from foreclosing on the Mortgage in
the event of a default.
The State-Court Default Judgment did not affect
Fannie Mae’s interest in the Note because the judgment
was entered in an in personam action to which Fannie
Mae was not a party. An in personam action seeks “the
determination of personal rights and obligations of
defendants.” Int’l Typographical Union v. Macomb Cty.,
11 N.W.2d 242, 247 (Mich. 1943). It is “brought against
a person rather than property.” Chevalier v. Estate of
Barnhart, 803 F.3d 789, 801 (6th Cir. 2015) (quoting
Black’s Law Dictionary, at 36 (10th ed. 2014)). A
judgment in an in personam action binds only the
named parties and those in privity with the named
parties. Indeed, “[i]t is a principle of general application
in Anglo-Americanjurisprudence that one is not bound
by a judgment in personam in a litigation in which he
is not designated as a party or to which he has not been
made a party by service of process.” Hansberry v. Lee,
311 U.S. 32, 38, 40 (1940). Any attempt to bind a nonparty and non-privy to a judgment entered in an in
personam action would raise serious due process
concerns. See Richards v. Jefferson Cty., Ala., 517
U.S. 793, 797 n.4 (1996) (“[A State] cannot, without
disregarding the requirement of due process, give a

conclusive effect to a prior judgment against one who is
neither a party nor in privity with a party therein.”
(quotation omitted)).
An in rem action, in contrast to an in personam
action, “is one taken directly against property.” City of
Detroit v. 19675 Hasse, 671 N.W.2d 150, 163 (Mich. Ct.
App. 2003) (quoting Black’s Law Dictionary, at 793 (6th
ed. 1991)). Such an action “determin[es] the title to
property and the rights of the parties, not merely among
themselves, but also against all persons at any time
claiming an interest in that property,” or is “an action
in which the named defendant is real or personal
property.” Chevalier, 803 F.3d at 802 (quoting Black’s
Law Dictionary, at 36 (10thed. 2014)). “A judgment in
rem binds all the world,” not just the parties named in
the action. L.A. Young Spring & Wire Corp. v. Falls, 292
N.W. 498, 503 (Mich. 1940).
Here, the State-Court DJ Action was an in
personam action because the Leeals (1) sought a
determination of their personal rights and obligations
under the Note and the loan vis-à-vis the two named
defendants – CMI and ABN AMRO – and (2)did not file
suit against or in the name of real or personal property.
See Eisner v. Williams, 298 N.W. 507, 510 (Mich. 1941)
(an action “to try title or right to the debt”is “an action in
personam”); see also Williamson v. Falkenhagen, 227
N.W. 429, 429 (Minn. 1929) (“The action against the
securities company and its receiver is solely to set aside
the transfer of the note and mortgage to that company;
in effect, to determine that plaintiff and not that
company is the owner of the debt evidenced by them. . .
. [T]he action is clearly an action in personam.”). Thus,
the judgement entered in that action – i.e., the StateCourt Default Judgment – was an in personam
judgment rather than an in rem judgment.

As an in personam judgment, the State-Court
Default Judgment did not void or impair the rights of
Fannie Mae (the owner of the Note) and/or Ditech (the
servicer and holder of the Mortgage) because they were
not named parties nor were they in privity with the
named parties.2 Stated another way, while the StateCourt Default Judgment may have determined that the
Note and the Mortgage were “void” as between the
Leeals, on one hand, and ABN AMRO and CMI, on the
other hand, that judgment did not void the Note or
Mortgage as between the Leeals, Fannie Mae, and
Ditech. And since the State-Court Default Judgment
did not impair the rights of Fannie Mae and Ditech
with respect to the Note and the Mortgage, the
judgment did not preclude Ditech from foreclosing on
the Mortgage when the Leeals stopped making
payments on their loan.
The Court’s conclusion is supported by two
analogous Michigan Supreme Court quiet title cases
cited by Ditech. (See Renewed Mot. for Summ. J., ECF
No. 49, PageID.1148–1149.)
___________________________________________________
2 The Leeals have not established that Ditech or Fannie Mae were in privity with
CMI or ABN AMRO with respect to the State-Court DJ Action. “In Michigan, [t]obe
in privity is to be so identified in interest with another party that the first litigant
represents the same legal right that the later litigant is trying to assert.” Leaf v.
Refn,742 F. App’x 917, 922 (6th Cir. 2018) (quotation omitted). In the State-Court
DJ Action, CMI and ABN AMRO were not “representing” any “legal right” – much
less the right that Ditech seeks to enforce through foreclosure – because CMI and
ABN AMRO had no interest in the subject matter of the action; the Leeals had
wrongly named those entities as parties and they did not even appear. Thus, ABN
AMRO and CMI were not in privity with Fannie Mae and Ditech with respect to the
State-Court DJ Action. At one point, the Leeals briefly argued that Ditech was in
privity with CMI. (See Resp., ECF No. 35, PageID.792–793.) The Leeals’ evidenceof
privity was (1) emails between Ditech and CMI employees about the loan (see CMI–
Ditech Email Chain, ECF No. 35-16), and (2) a letter from CMI to the Michigan
Department of Insurance and Financial Services informing it that Ditech’slitigation
department was reviewing Ditech’s attempts to collect on the loan. (See 8/1/17
Letter, ECF No. 35-17.) These letters do not demonstrate that Ditech was “so
identified in interest” with CMI during the State-Court DJ Action that CMI
represented “the same legal right” that Ditech is asserting here. Id.

First, in Giegling v. Helmbold, the court addressed the
following question: “Could the [defendants’] claimed
right of access, as an abutting property holder to a
public street, be adjudicated as to them in a suit in
which they were not parties?” 98 N.W.2d 536, 537
(Mich. 1959). No, the court concluded: “Every man is
entitled to his day in court. And, on this record, the
[defendants] have not had theirs.” Id. The court
explained that “[a] decree quieting title does not
extinguish the property rights of persons not made
parties to the action.” Id. And the defendants were not
barred by the doctrine of res judicata, because the
doctrine“applies only when the issues and the parties or
their privies in the prior litigation are identical.” Id.
(emphasis in original).
Second, in Schweikart v. Stivala, the court
similarly concluded that a defendant was not bound by
the plaintiff’s prior quiet title decree because the
defendant was not named in the quiet title suit. See 45
N.W.2d 26, 30 (Mich. 1950).“As to defendant herein,
who was not a party to plaintiffs’ suit to quiet title,
the decree of the court, which pertained only to those
who were defendants or intervening defendants in that
case, is of no persuasive or binding force.” Id.
Here, as in Giegling and Schweikart, the StateCourt Default Judgment did not limit or impair the
rights of Fannie Mae and Ditech in the Note and the
Mortgage because Fannie Mae and Ditech were not
parties to the State-Court DJ Action. And the StateCourt Default Judgment did not bar Ditech from
foreclosing on the Mortgage when the Leeals stopped
making payments on their loan.

B
The Leeals resist this conclusion on three
grounds. (See Resp., ECF No. 51, PageID.1262–1267.)
None persuade the Court to rule in their favor.
First, the Leeals highlight that they were never
aware that Fannie Maepurchased their loan from ABN
AMRO and thus they could not have known that they
needed to name Fannie Mae as a party in the StateCourt DJ Action. (See id., PageID.1262–1264.) But
whether or not the Leeals’ knew that Fannie Mae
owned their debt is irrelevant to whether the StateCourt Default Judgment binds non-partyFannie Mae.
Indeed, the Leeals have not cited any authority to
support their contention that a non-party (like Fannie
Mae) may be bound by an in personam judgment on the
ground that the plaintiff’s failure to sue the non-party
was based upon an error or lack of knowledge. Rather,
as explained above, only named parties and their
privies can be bound by an in personam judgment. See
Hansberry, 311 U.S. at 40; Richards, 517 U.S. at 798.
Second, the Leeals insist that the Court cannot
deviate from the State-Court Default Judgment. (See
Resp., ECF No. 51, PageID.1264.) The Court agrees
that itmay not upset the state court’s ruling. But that
proposition does not help the Leeals. The Leeals lose
here because the State-Court Default Judgment did not
adjudicate the rights of Fannie Mae and Ditech. Thus,
this Court does not disturb the State- Court Default
Judgment in any way when it rules that Ditech and
Fannie Mae are not bound by that judgment and that
the judgment does not prevent Ditech from foreclosing
on the Mortgage.
Third (and relatedly), the Leeals insist that
Ditech may not foreclose because the State-Court

Default Judgment extinguished the Note, and without
a valid underlying note, there is no basis to foreclose on
the Mortgage. (See id.) Again, however, the State-Court
DJ Action only determined the rights of the named
parties:CMI and ABN AMRO. The State-Court Default
Judgment had no bearing on whether Fannie Mae or
Ditech had a valid interest in the Note and Mortgage.
C
As noted above, the Court previously denied two
dispositive motions by Ditech – a motion to dismiss and
a motion for summary judgment. In denying the motion
to dismiss, the Court suggested that if the state court did
not vacate the State Court Default Judgment, then
Ditech would lose here. (See 9/14/17 Hr’g Tr. at 57, ECF
No. 9, PageID.427.) And in denying summary judgment,
the Court suggested that it may be possible that the
State-Court DJ Action had an impact on the rights of
Fannie Mae and Ditech. (See 8/9/19 Hr’g Tr. at 43–44,
ECF No. 44, PageID.1103–1104.)
The Court has carefully reconsidered its earlier
positions concerning the effect of the State-Court
Default Judgment and has concluded that its earlier
inclinations were wrong. After reviewing the
authorities cited above concerning the scope of in
personam judgments, the Court has realized that the
State-Court Default Judgment does not impair or limit
the rights of Fannie Mae and Ditech. As Justice
Frankfurtersaid, “Wisdom too often never comes, and so
one ought not to reject it merely because it comes late.”
Henslee v. Union Planters Nat’l Bank & Tr. Co., 335
U.S. 595, 600 (1949) (Frankfurter, J., dissenting).

IV
For the reasons explained above, the Court hereby
ORDERS that:
•

•

•
•
•

Ditech’s Renewed Motion for Summary
Judgment on all of the Leeals’claims is
GRANTED and those claims are DISMISSED
WITH PREJUDICE;
Ditech’s Renewed Motion for Summary
Judgment on Count I of its counterclaim,
seeking a declaratory judgment that the StateCourtDefault Judgment is not binding on
Ditech, is GRANTED
The temporary restraining order against Ditech
is EXTINGUISHED.3
Ditech may proceed to foreclose on the
Mortgage; and
Ditech’s request for attorneys’ fees under the
terms of the Mortgage is DENIED WITHOUT
PREJUDICE. To the extent that Ditech wishes
to recover such fees and costs, it may bring a
stand-alone request that the Court will consider
at a later date.

IT IS SO ORDERED.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
___________________________________________________
3See Burniac v. Wells Fargo Bank, N.A., 810 F.3d 429, 435 (6th Cir. 2016)
(“Because the summary judgment was a final order, its issuance immediately
extinguished the state court’s preliminary injunction.”).

Dated: March 5, 2020
I hereby certify that a copy of the foregoing
document was served upon theparties and/or counsel
of record on March 5, 2020, by electronic means and/or
ordinary mail.
s/Holly A. Monda
Case Manager
(810) 341-9764

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MATI LEEAL, et al.,
Plaintiffs,

Case No. 2:17-cv-10645
Hon. Matthew F. Leitman

v.
DITECH FINANCIAL LLC.,
Defendant.
/
ORDER DENYING DEFENDANT’S MOTION FOR
SUMMARYJUDGMENT (ECF #30) WITHOUT
PREJUDICE

On August 9, 2019, the Court held a hearing on
Defendant’s motion for summary judgment (ECF #30).
For the reasons stated on the record, Defendant’s
motion is DENIED without prejudice.
IT IS SO ORDERED.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE

Dated: August 12, 2019
I hereby certify that a copy of the foregoing
document was served upon theparties and/or counsel of
record on August 12, 2019, by electronic means and/or
ordinary mail.
s/Holly A. Monda
Case Manager
(810) 341-9764

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MATI LEEAL, et al.,
Plaintiffs,

Case No. 2:17-cv-10645
Hon. Matthew F. Leitman

v.
DITECH FINANCIAL LLC.,
Defendant.
/
ORDER (1) DENYING DEFENDANT’S MOTION
TO DISMISS (ECF #3),(2) STAYING THIS CASE,
AND (3) DIRECTING DEFENDANT TO FILE
MOTION IN STATE ACTION
This matter came before the Court for a hearing
on Defendant Ditech Financial LLC’s (“Ditech
Financials’) Motion to Dismiss Pursuant to Fed. R. Civ.
Pro. 12(b)(6) (“Motion to Dismiss”) (ECF #3) on
September 14, 2017. For the reasons stated on the
record during the hearing, the Court HEREBY
ORDERS as follows:
(1) Ditech Financials’ Motion to Dismiss (ECF #3)
is DENIED.
(2) This case is STAYED until further order of
the Court.
(3) Within thirty (30) days of this order, Ditech
Financial shall file in Oakland County Circuit
Court a motion seeking to set aside, vacate, or

otherwise obtain relief from the judgment of the
Oakland County Circuit Court in Case No. 2015146929.
(4) Not later than seven (7) days after the Oakland
County Circuit Court enters a written order
deciding Ditech Financials’ motion to be filed
pursuant to paragraph (3) above, counsel for
Ditech Financial shall electronically file a copy of
that order with this Court. Counsel for Ditech
Financial shall also send the Court’s case
manager an email informing the Court of the
order.
The
email
shall
be
sent
to
Holly_Monda@mied.uscourts.gov.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: September 15, 2017
I hereby certify that a copy of the foregoing
document was served upon theparties and/or counsel of
record on September 15, 2017, by electronic means
and/or ordinary mail.
s/Holly A. Monda
Case Manager
(810) 341-9764

